    Federal Election Commission

     Office of Inspector General




               Final Report

 Compliance with the National Institute of
Standards and Technology Security Controls
              Cost Analysis

             September 2014


        Assignment No. OIG-14-03
                                                  TABLE OF CONTENTS




Introduction ................................................................................................................................................. 3
Compliance with NIST SP 800-53 ............................................................................................................. 7
APPENDIX A – Priority IT Control Selections ..................................................................................... 22
APPENDIX B – What are POAMs? ....................................................................................................... 29
APPENDIX C – What is FISMA ............................................................................................................. 31
APPENDIX D – Acronym Listing ........................................................................................................... 37
APPENDIX E - Resources........................................................................................................................ 39
Appendix F - About Your Internal Controls .......................................................................................... 40




                                                                                                                                                              2
                                         INTRODUCTION

Currently, the Federal Election Commission (FEC) is exempt from complying with the Federal
Information Security Management Act (FISMA) of 2002, and due to this exemption, the agency
has not implemented many of the government-wide information technology (IT) security
standards. The Office of Inspector General (OIG) has been reporting since 2004 that the agency
should formally adopt the government-wide IT security standards to strengthen IT security at the
agency.

Recently, there have been breaches in security, which has brought negative attention to the FEC.
The OIG procured consulting services to conduct an analysis of the anticipated cost to the FEC
to comply with:

    a) The National Institute of Standards and Technology’s (NIST) minimum best practice
       information technology (IT) security standards that apply to all government agencies;

    b) All other NIST IT security standards that are applicable to the FEC’s business process
       and associated system risk levels;

    c) The FISMA Act of 2002; and

    d) Any other applicable government-wide IT security standard that the agency has not
       implemented.

The contractor selected for this effort was Your Internal Controls, LLC. Mr. Jack Heyman, of
Your Internal Controls performed all of the work entailed in this endeavor. Mr. Heyman
prepared a cost analysis work-plan that was reviewed and approved by the OIG. The
development of the cost analysis included the following efforts:

      Interviews with all key IT personnel.

      Assess the levels of compliance with government-wide IT standards to ascertain what is
       remaining, should the FEC decide to comply with NIST.

      Obtain and review documentation (all IT policies and procedures for each of the systems
       at FEC), external reports (e.g. SOC 1 reports).




1
 A Service Organization Control (SOC) report is an internal control report on the outsourced services provided by a
service organization. The report provides valuable information that the user organizations need to assess the risks
associated with an outsourced service.
                                                                                                                  3
                           IT CONTROL DEFICIENCIES
As a result of the noted consulting services above, Your Internal Controls has identified
significant issues and/or deficiencies that need immediate corrective action. These issues greatly
impact the agency’s ability to adequately comply with government-wide IT standards. Those
items were as follows:

     The FEC currently has an incomplete inventory 2 concerning the hardware, software, and
      other elements relating to Information Technology. By having an incomplete inventory of
      IT hardware and software, there may be unknown equipment attached to the network,
      thereby exposing the agency to unforeseen risks. Furthermore, the lack of a proper
      inventory may also result in the lack of properly deployed controls as the equipment is
      not known to exist.

     The FEC does not have adequate plans and processes in place to ensure that the mission
      of the agency can still be carried out in the event of a disaster. Based on the review of
      FEC’s contingency documentation for this analysis, the documentation was noted as
      outdated (more than 3 years old) and not in compliance with the required government
      standards (e.g. NIST 800-34). In accordance with the OIG’s January 2013 report on the
      Inspection of the FEC’s Disaster Recovery Plan and Continuity of Operations Plans, the
      Information Technology Division (ITD) paid $277,506 from 2008 to 2010 on a
      contractor to develop the agency’s contingency plans; however, the plans were never
      properly tested or fully implemented by IT management.

     FEC lacks a current process to conduct an annual Privacy Impact Assessment 3 to
         consider the data within each of the agency’s systems. At the completion of this exercise,
         the agency will be better informed as to which technical controls should be deployed to
         protect the data residing on those respective systems.

FEC System Inventory & Gap Analysis

The table below gives a summary analysis of the FEC’s current state regarding compliance with
government-wide IT standards (NIST). As stated above, many IT personnel were interviewed as
well as representation from OGC; several IT documents (policies and procedures, contingency
documents, system/application listing, etc.) were also reviewed. The review identified that the
current documentation either did not meet the requirements of best practice, the information was

2
  Due to the lack of inventory records, this cost analysis was based on agency size and the complexity of the FEC’s
systems and business processes.
3
  Currently an outstanding recommendation from an OIG audit: 2010 Follow-up Audit of Privacy and Data
Protection.
                                                                                                                      4
outdated, or the information did not exist. As such, none of the documentation obtained could be
used to comply with NIST IT standards. In the table below, FEC’s data and documentation was
assessed against the following required standards:

   •        Boundary Memo – document identifying the hardware and software that is in the
            boundary of the respective system.
   •        FIPS-199 Worksheet –facilitates the identification of risk categorization for the
            respective system.
   •        PIA (Privacy Impact Assessments) –an analysis of Personally Identifiable Information
            and helps to identify if the controls deployed are commensurate with the risks of the
            respective system.
   •        SSP (System Security Plan) –a document developed for each agency system where each
            of the NIST 800-53 Revision 4 controls are addressed and described in terms of how each
            control is deployed and implemented.
   •        eAuthentication Worksheet –facilitates the determination of which type of authentication
            (i.e. dual factor authentication) should be used for the system.
   •        ISCP (Information System Contingency Plan) –describes all contingency related matters
            for the system such as backups, restoration of data, alternate storage sites, etc.




                                                            Boundary FIPS-199               eAuthentication
       #                           System                    Memo Worksheet     PIA   SSP     Worksheet     ISCP
       1      Comprizon                                        No       No      No     No         No         No
       2      Enterprise Content Management                    No       No      No     No         No         No
       3      Case Management                                  No       No      No     No         No         No
       4      LAN                                              No       No      No     No         No         No
       5      Electronic Distribution System                   No       No      No     No         No         No
       6      Disclosure                                       No       No      No     No         No         No
       7      Presidential Matching Funds                      No       No      No     No         No         No
       8      PCs                                              No       No      No     No         No         No
       9      WebTA                                            No       No      No     No         No         No
       10     Mobile Iron (replaced the Blackberry servers)    No       No      No     No         No         No
       11     Wireless network                                 No       No      No     No         No         No
       12     Mobile Devices                                   No       No      No     No         No         No
       13     ARSS                                             No       No      No     No         No         No




                                                                                                                   5
                     What is NIST and What are the Benefits?

The National Institute of Standards and Technology (NIST) is an agency within the Commerce
Department and among its many responsibilities; it is tasked with aiding agencies in complying
with best practice IT standards in accordance with the agency’s business processes via the
development of various Special Publications (SP). These SP documents have the following
development objectives:

     Standards for categorizing information and information systems by mission impact;
     Standards for minimum security requirements for information and information systems;
     Guidance for selecting appropriate security controls for information systems;
     Guidance for assessing security controls in information systems and determining
      security control effectiveness;
     Guidance for the security authorization of information systems; and
     Guidance for monitoring the security controls and the security authorization of
      information systems.
Each of the SP 800 series documents has an “Authority” section in the beginning of the
document. This section describes the authority of the document as well as references specific
laws to which the agency will be complying with such as OMB A-130, which is applicable to the
FEC.

The FEC will encounter many benefits from implementing government-wide IT security
standards that are widely used and understood throughout all of the federal government. NIST
specifically calls out some of those benefits as follows:

 The implementation of cost-effective, risk-based information security programs.
 The establishment of a level of security due diligence for federal agencies and contractors
  supporting the federal government.
 More consistent and cost-effective application of security controls across the federal
  information technology infrastructure.
 More consistent, comparable, and repeatable security control assessments.
 A better understanding of enterprise-wide mission risks resulting from the operation of
  information systems.
 More complete, reliable, and trustworthy information for authorizing officials--facilitating
  more informed security authorization decisions.
 More secure information systems within the federal government including the critical
  infrastructure of the United States.


                                                                                             6
Also, as NIST is responsible for creating and updating IT standards to ensure the federal
government has adequate IT controls, the FEC should also experience an increase in productivity
and consistency as the agency will no longer have to create their own IT security standards.

In addition, FEC IT staff will have structured policies and procedures and can be more proactive
in preventing IT issues rather than reactive, which consistently increases spending and limits
resources. Although every IT security issue cannot be prevented, the FEC is assured to have a
more robust IT security program to protect the agency’s systems and information if the NIST standards
are adequately implemented.

                    COMPLIANCE WITH NIST SP 800-53

The agency must document and deploy controls commensurate with the security categorization
for their systems (Low, Moderate, or High). The controls for Low, Moderate, and High systems
are located within NIST SP 800-53 Revision 4. Upon interview with IT personnel, as well as
review of IT documentation, it was determined that all of FEC’s systems would most likely
categorize as a Moderate system.

The controls are broken out by what NIST refers to as control families. Additionally, each family
has controls and control enhancements. The control enhancements are additional controls
needed based on a system risk categorization and are denoted in parenthesis when reviewing the
NIST SP 800-53.

The next page shows a listing of the NIST 800-53 families showing the number of controls and
control enhancements that are required for the Moderate security categorizations applicable to
the FEC. In addition, the priority column represents those controls and applicable control
enhancements that are considered significant in terms of the controls that should be deployed by
FEC immediately based on this cost analysis.




                                                                                                   7
                        NIST Moderate IT Controls Table
                                                          Control               Priority
#             Control Families           Controls       Enhancements            Controls
 1 Access Control                            17               18                    9
 2 Awareness and Training                    4                 1                    4
 3 Audit and Accountability                  11                7                    5
   Security Assessment and
 4 Authorization                             7                 3                    6
 5 Configuration Management                  11               10                    8
 6 Contingency Planning                      9                13                    5
 7 Identification and Authentication         8                14                    5
 8 Incident Response                         8                 4                    4
 9 Maintenance                               6                 3                    2
10 Media Protection                          7                 2                    2
   Physical and Environmental
11 Protection                                16                2                    12
12 Planning                                  4                 2                    3
13 Personnel Security                        8                 0                    3
14 Risk Assessment                           4                 3                    4
15 System and Services Acquisition           9                 5                    4
   System and Communications
16 Protection                                19                5                    6
17 System and Information Integrity          11               10                    5
18 Program Management                        16                0                    10
19 Privacy                                   26                0                    21
                                            201               102                  118


The next page provides a brief description explaining the benefits and risks for each of the
families contained within NIST 800-53 Revision 4. For further details of the specific controls
that are deemed priority, please refer to Appendix A within this document.




                                                                                            8
Access Control family

If access rights are not set appropriately, then users may have privileges to agency information that
exceed their approved rights. As an example, the FEC encountered a breach related to access controls in
FY 2012 when a staff person in the Office of General Counsel was granted unauthorized access to
sensitive human resource documents. It is imperative that data be protected in a manner that is
commensurate with the risk it poses.

Awareness and Training family

Security awareness training is essentially providing training to new employees and contractors and also
providing annual refresher training. This control decreases the risk that users will be uninformed about
their rights and responsibilities when granted access to agency systems. The FEC has implemented
security awareness training for staff and contractors, and also requires annual security awareness
training for all FEC staff and contractors. In addition, FEC has two levels of security awareness
training: supervisory and staff level. Also, records are maintained of the security training.
However, the FEC does not have adequate security-related technical training specifically
tailored for those persons with assigned security roles (i.e. system/network administrators,
configuration management, etc.)

Audit and Accountability family

Agencies may have various preventive controls in place, however without detective controls such as
auditing, administrators will not have uninformed processes to react appropriately to security breaches
and violations. The auditing control family ensures there are appropriate audit events captured timely; and
that these events are reviewed and corrective actions are taken so that security breaches are managed
effectively. Auditing in this context refers to capturing the data for specific auditable events such as when
a user logs on or logs off from the system, or notifications of unauthorized access attempts.

Security Assessment and Authorization family

This control family concerns documentation of NIST 800-53 controls (see table on page 8) and then
assessing those controls to ensure they are operating effectively. Without the proper documentation of
controls for each system, there is the risk that controls will not be deployed correctly, thereby exposing
the agency to unforeseen risks.

Configuration Management family

All changes, whether they are system changes, patches, new releases, etc., are managed by this control
family to ensure that changes are made in a controlled environment. If changes are made to any of the
FEC systems without positive test results, approvals, or proper segregation of duties, then the agency runs
the risk that those unauthorized changes could result in inappropriate changes being made. Those
inappropriate changes may result in exposures to vulnerabilities or access control weaknesses to the
respective systems.

                                                                                                           9
Contingency Planning family
In the event of a disaster that prohibits access to the FEC building or causes data to be inoperable or
corrupted, the agency needs processes and controls in place to ensure essential personnel can continue to
work and carryout the mission of the agency. This control family focuses on the importance of having
backups taken, procedures for restoring data, and testing the data to ensure there was no adverse actions
prior to restoring the data. Without appropriate backups and testing of those backups, data may become
lost forever without proper controls within this family.

Identification and Authentication family

This family addresses the management of IDs and the complexity of passwords. All agencies need strong
identification and authentication controls as a first line of defense to prevent adverse actions on agency
systems. It has been noted that the FEC utilizes a PIV card with a unique pin number, along with a
PGP passphrase for accessing the agency’s network, and those implemented controls are applicable
to this control family.

Incident Response family

The controls for Incident Response deals with how IT security incidents are captured, tracked, and
monitored. This control family is also concerned with how risk is assessed and modified as a result of the
number and types of incidents that the agency faces. It is very important that the agency captures each
incident and then makes the necessary security changes to the systems and network based on those
incidents. FEC is in the process of making security changes to address the previous system attacks
by the Chinese; however, management currently has outstanding recommendations that have not
been fully implemented from 2012 by the contractor hired by ITD to assess the intrusions.

Maintenance family

In order to manage when FEC hardware will become inoperable, it is important to perform periodic
maintenance. This family covers the area of proper maintenance and how to control who performs the
maintenance, from which locations, and how it is performed. It is also important to control who cleans
(i.e. removing agency data) the equipment if it is being sent off-site to prevent confidential data regarding
the agency or agency personnel from being transferred to the public or others who are not privileged to
the information.

Media Protection family

This control family addresses security controls over storing data on CDs, USB drives, and other media
devices so that if they are lost or stolen, the agency’s data cannot be compromised.

Physical and Environmental Protection family

Data may be protected with the best logical controls (e.g. access controls), however, the data should also
be protected physically and from the elements of nature. Good physical controls need to be in place to

                                                                                                          10
ensure that the data is protected physically from any fraud, waste, abuse, and safety hazards. The data
should be in a separate facility with physical controls determining who can and cannot access the data.

Planning family

This control family ensures that all controls are documented correctly in a System Security Plan for each
system at the FEC. The Security Plan should list each of the NIST 800-53 controls that should be
explained with respect to the deployment of those controls for each system. Currently the FEC does not
have a formalized Security Plan for each system at the FEC. This lack of control increases the
likelihood that controls are not deployed and/or implemented correctly, and the agency is at risk for
numerous exposures to vulnerabilities as the systems residing on the network will likely be open for
attack.

These controls also addresses the Rules of Behavior and requires each employee and contractor to have
read, understood, and signed off on their rights and responsibilities when accessing agency data.

Personnel Security family

This control family is concerned with performing background checks, deploying sanctions for those
employees violating policies, and ensuring personnel and contractors have signed pertinent agency
agreements. When an agency performs background checks for prospective employees and contractors, as
well as periodically (e.g. every 3 years) for those currently accessing agency systems, this reduces the risk
of having an unethical person with adversarial intentions accessing the network and agency resources. It
shall also be noted that this control family is usually managed by the Human Resources personnel in
conjunction with IT personnel for system access.

Risk Assessment family

This control family addresses the risk assessment process for systems at the agency. Each system poses a
different level of risk. Agencies with higher risk should have more and stronger controls, whereas systems
with less risk will have fewer controls. In order to identify what controls to deploy to be compliant with
government-wide standards, it is necessary to assess risks for each system.

System and Services Acquisition family

This control family is similar to the Configuration Management family, however these controls address
specific concerns for developers and how they manage configuration changes prior to deploying the
change into production. Developers must appropriately test changes and migrate those changes properly
so that agency personnel will be without interruption when working on agency systems.

System and Communications Protection family

This control family addresses encryption to ensure that the latest federal encryption requirements are
being complied with. Additionally, this family also addresses firewalls and other perimeter security to
ensure that the logical walls surrounding the network have adequate security posture. It is important for

                                                                                                          11
this data to be protected when at rest (e.g. residing on a server) and when in transit (e.g. someone entering
data from their computer to a server).

System and Information Integrity family

This control family addresses how to identify, manage and eradicate flaws, malicious code, and how to
handle errors. In the event that a system has a flaw or malicious code, this could pose serious risk to the
agency’s assets. These controls also address the retention of data to comply with various privacy
regulations.

Program Management family

This control family directs the management of the agency to consider and deploy measures to prevent
against insider threats, track any deficiencies and have them remediated timely, as well as an array of
other control environment level measures to ensure that the agency is considering a risk based, top-down
approach for deploying security. The overall benefit of this family is that it forces the agency to have a
holistic view of the systems and risks they pose to the agency’s assets and resources.

Privacy family

This control family is essential because the FEC must comply with an array of privacy regulations as a
federal executive agency. This control family represents a set of controls that help to address those
privacy regulations such as creating and maintaining Privacy Impact Assessments (PIA) 4, posting them
on the agency’s website, redacting data from the PIAs if they pose to be too sensitive, complaint
management in the event that a user has a complaint about their privacy concerns, and more.




4
 The OIG currently has an outstanding recommendation related to PIA’s in their 2010 Audit Follow-up of Privacy
and Data Protection audit report that has not been addressed by the Co-Chief Privacy Officers.
                                                                                                                 12
                    Costs of Complying with Applicable NIST Standards 5
The estimated costs of complying with NIST control standards took into account that IT
management identified that all systems in scope will result in being a Moderate categorization.
The tables that follow identify the estimated cost to the FEC procuring services from a small,
medium, or large contracting firm to complete the tasks necessary for the FEC to be in
compliance with applicable NIST standards. In addition, the tables illustrate the cost of
implementing: 1) all moderate controls applicable to the FEC and 2) only those controls
identified via this analysis as “priority controls” at the moderate level. Also, the tables below
include hour estimates for complying with the standards. In the event that the agency decides to
perform some or all of these tasks in-house, then ITD can merely quantify the number of hours
per task, individually for each system. The cost savings would also be reflective via the tables
below. However, it is the opinion of Your Internal Controls, LLC that an external contractor
should be used for the implementation of these tasks. Typically, a contractor will have had years
of experience in preparing the required documents and testing the NIST 800-53 controls. The
experience of preparing the NIST related documentation, along with testing and remediating
control deficiencies lends itself to a more efficient approach via the use of an external contractor.

The tables that follow depict the various scenarios and their associated cost estimate. The
following bullets give a description of the table columns:

       •   Type: identifies the FEC’s system as either a Major Application – MA, or General
           Support System – GSS.
       •   Complete Inv. Boundary, assess risks & identify connections: denotes the hours to
           complete an assessment of each system’s boundary (in terms of risk), as well as identify
           the complete IT system inventory (e.g. hardware, software, etc.).
       •   FIPS-199 denotes the hours to complete an assessment to ensure that all systems are in
           fact a Moderate risk system as identified by IT management.
       •   eAuth denotes the hours necessary to ascertain the level of depth that is commensurate
           with the risks of that system, to deploy the correct Identification and Authentication
           controls
       •   PIA (Privacy Impact Assessment) denotes the hours needed to identify the data concerns
           and appropriate controls to be deployed to ensure that risks are commensurate with
           privacy concerns.
       •   SSP & ISCP (System Security Plan & Information System Contingency Plan) denotes
           the hours to document each plan for each system



5
    All costs are estimates based the professional knowledge, skills, and experience of Your Internal Controls, LLC
                                                                                                                      13
   •   Control Assessment: denotes the hours to assess the SSP & ISCP controls to identify
       any risks.
   •   Remediation: denotes the hours to remediate any identified risks from the control
       assessment
   •   Develop SAR: denotes the hours to document any risk that could not be immediately
       remediated.

***The hours for remediation and SAR development is contingent on the number of deficiencies
noted from the controls assessment.

Cost Estimate Tables

The following page lists various tables depicting estimated bill rates, as well as hourly estimates
for the tasks in complying with NIST. The billing rates between small, medium, and large
contracting firms, as well as the comparison between hourly estimates is based on Your Internal
Controls, LLC’s review of over 50 contracting engagements where small, medium, and large
firms were awarded contracts to perform the same types of engagements requiring review;
testing; and/or implementing NIST standards. For instance, it is typical practice that larger firms
will lower the bill rates to account for the larger hourly estimates based on the level of project
management and oversight involved with the project when compared to a smaller firm that has
less concurring reviews and oversight. As an example, in the tables that follow, you will note
that the estimated billing rate for a small contract firm and a large contract firm is the same, but a
large difference in the estimated hours for completion, which reflects the different levels of
oversight.




                                                                                                   14
                                                   Small Contract Firm Costs
All Moderate Controls


                                                 Total       Billing                   Complete inv. boundary, assess                                Controls              Develop
  #                        System       Type     Hours        Rate          Cost        risks, & identify connections FIPS-199 eAuth PIA SSP & ISCP Assessment Remediation SAR
  1    Comprizon                         MA      255.6     $       125   $ 31,950.00                 5.6                  8      2 8        140          56        28         8
  2    Enterprise Content Management     MA      313.6     $       125   $ 39,200.00                 5.6                  8      2 10 175                70        35         8
  3    Case Management                   MA      529.5     $       125   $ 66,187.50                  21                  8      8 12 315               105       52.5        8
  4    LAN                              GSS       726      $       125   $ 90,750.00                  56                  8      8 16 420               140        70         8
  5    Electronic Distribution System    MA       489      $       125   $ 61,125.00                  14                  8      8 10 315                84        42         8
  6    Disclosure                        MA      588.5     $       125   $ 73,562.50                  42                  8      8 15 350               105       52.5        8
  7    Presidential Matching Funds       MA       336      $       125   $ 42,000.00                  14                  8      4 8        210          56        28         8
  8    PCs                               MA      354.4     $       125   $ 44,300.00                 22.4                 8      0 8        245          42        21         8
  9    WebTA                             MA      218.1     $       125   $ 27,262.50                 5.6                  8      0 4        140          35       17.5        8
  10   Mobile Iron                      GSS      331.2     $       125   $ 41,400.00                 11.2                 8      4 6        210          56        28         8
  11   Wireless network                  MA      238.9     $       125   $ 29,862.50                 22.4                 8      0 8        140          35       17.5        8
  12   Mobile Devices                    MA       283      $       125   $ 35,375.00                  35                  8      0 8        140          56        28         8
  13   ARSS                              MA       244      $       125   $ 30,500.00                  21                  8      0 4        140          42        21         8
       Total hours                              4907.8                                              275.8                104 44 117 2940                882       441        104
       Bill Rate                               $ 125.00
       Total Cost                              $ 613,475




                                                                                                                                                                               15
                                                   Small Contract Firm Costs
Priority Controls Only


                                                 Total         Billing                   Complete inv. boundary, assess                                Controls              Develop
  #                        System       Type     Hours         Rate           Cost        risks, & identify connections FIPS-199 eAuth PIA SSP & ISCP Assessment Remediation SAR
  1    Comprizon                         MA        190     $         125   $ 23,750.00                   4                  8      2 8        100          40        20         8
  2    Enterprise Content Management     MA        232     $         125   $ 29,000.00                   4                  8      2 10       125          50        25         8
  3    Case Management                   MA      388.5     $         125   $ 48,562.50                  15                  8      8 12       225          75       37.5        8
  4    LAN                              GSS        530     $         125   $ 66,250.00                  40                  8      8 16       300         100        50         8
  5    Electronic Distribution System    MA        359     $         125   $ 44,875.00                  10                  8      8 10       225          60        30         8
  6    Disclosure                        MA      431.5     $         125   $ 53,937.50                  30                  8      8 15       250          75       37.5        8
  7    Presidential Matching Funds       MA        248     $         125   $ 31,000.00                  10                  8      4 8        150          40        20         8
  8    PCs                               MA        260     $         125   $ 32,500.00                  16                  8      0 8        175          30        15         8
  9    WebTA                             MA      161.5     $         125   $ 20,187.50                   4                  8      0 4        100          25       12.5        8
  10   Mobile Iron                      GSS        244     $         125   $ 30,500.00                   8                  8      4 6        150          40        20         8
  11   Wireless network                  MA      177.5     $         125   $ 22,187.50                  16                  8      0 8        100          25       12.5        8
  12   Mobile Devices                    MA        209     $         125   $ 26,125.00                  25                  8      0 8        100          40        20         8
  13   ARSS                              MA        180     $         125   $ 22,500.00                  15                  8      0 4        100          30        15         8
       Total hours                                3611                                                 197                 104    44 117 2100             630       315        104
       Bill Rate                               $ 125.00
       Total Cost                              $ 451,375




                                                                                                                                                                                 16
                                                                           Medium Contract Firm Costs
All Moderate controls

                                                Total          Billing                    Complete inv. boundary, assess                                    Controls              Develop
  #                 System            Type     Hours           Rate            Cost        risks, & identify connections FIPS-199 eAuth   PIA   SSP & ISCP Assessment Remediation SAR
  1    Comprizon                       MA       541.2      $         115   $ 62,238.00                  11.2                 8      2      8       280         112       112         8
  2    Enterprise Content Management MA         669.2      $         115   $ 76,958.00                  11.2                 8      2      10      350         140       140         8
  3    Case Management                 MA        988       $         115   $ 113,620.00                  42                  8      8      12      490         210       210         8
  4    LAN                            GSS       1132       $         115   $ 130,180.00                 112                  8      8      16      560         210       210         8
  5    Electronic Distribution System  MA       1028       $         115   $ 118,220.00                  28                  8      8      10      630         168       168         8
  6    Disclosure                      MA       1068       $         115   $ 122,820.00                  84                  8      8      15      560         210       175         8
  7    Presidential Matching Funds     MA        630       $         115   $ 72,450.00                   28                  8      4      8       350         112       112         8
  8    PCs                             MA       691.8      $         115   $ 79,557.00                  44.8                 8      0      8       455          84        84         8
  9    WebTA                           MA       451.2      $         115   $ 51,888.00                  11.2                 8      0      4       280          70        70         8
  10   Mobile Iron                    GSS       622.4      $         115   $ 71,576.00                  22.4                 8      4      6       350         112       112         8
  11   Wireless network                MA       453.8      $         115   $ 52,187.00                  44.8                 8      0      8       245          70        70         8
  12   Mobile Devices                  MA        563       $         115   $ 64,745.00                   70                  8      0      8       245         112       112         8
  13   ARSS                            MA        475       $         115   $ 54,625.00                   42                  8      0      4       245          84        84         8
       Total hours                             9313.6                                                  551.6                104    44     117      5040       1694       1659       104
       Bill Rate                             $ 115.00
       Total Cost                            $ 1,071,064




                                                                                                                                                                                      17
                                                                      Medium Contract Firm Costs
Priority controls only


                                            Total         Billing                     Complete inv. boundary, assess                                Controls              Develop
  #              System               Type Hours          Rate             Cost        risks, & identify connections FIPS-199 eAuth PIA SSP & ISCP Assessment Remediation SAR
  1    Comprizon                       MA    416      $         115   $   47,840.00                   8                 16      4 16       200          80        80        12
  2    Enterprise Content Management MA      510      $         115   $   58,650.00                   8                 16      4 20       250         100       100        12
  3    Case Management                 MA    748      $         115   $   86,020.00                  30                 16     16 24       350         150       150        12
  4    LAN                            GSS    856      $         115   $   98,440.00                  80                 16     16 32       400         150       150        12
  5    Electronic Distribution System  MA    774      $         115   $   89,010.00                  20                 16     16 20       450         120       120        12
  6    Disclosure                      MA    809      $         115   $   93,035.00                  60                 16     16 30       400         150       125        12
  7    Presidential Matching Funds     MA    482      $         115   $   55,430.00                  20                 16      8 16       250          80        80        12
  8    PCs                             MA    521      $         115   $   59,915.00                  32                 16      0 16       325          60        60        12
  9    WebTA                           MA    344      $         115   $   39,560.00                   8                 16      0 8        200          50        50        12
  10   Mobile Iron                    GSS    474      $         115   $   54,510.00                  16                 16      8 12       250          80        80        12
  11   Wireless network                MA    351      $         115   $   40,365.00                  32                 16      0 16       175          50        50        12
  12   Mobile Devices                  MA    429      $         115   $   49,335.00                  50                 16      0 16       175          80        80        12
  13   ARSS                            MA    361      $         115   $   41,515.00                  30                 16      0 8        175          60        60        12
       Total hours                          7075                                                    394                 208    88 234 3600            1210       1185       156
       Bill Rate                          $ 115.00
       Total Cost                         $ 813,625




                                                                                                                                                                              18
                                                                             Large Contract Firm Costs
All Moderate controls


                                                  Total          Billing                    Complete inv. boundary, assess                                  Controls              Develop
  #                System               Type      Hours          Rate            Cost        risks, & identify connections   FIPS-199 eAuth PIA SSP & ISCP Assessment Remediation SAR
  1    Comprizon                         MA       541.2      $         125   $ 67,650.00                  11.2                   8      2    8     280         112       112         8
  2    Enterprise Content Management     MA       669.2      $         125   $ 83,650.00                  11.2                   8      2 10       350         140       140         8
  3    Case Management                   MA        1128      $         125   $ 141,000.00                  42                    8      8 12       630         210       210         8
  4    LAN                              GSS        1552      $         125   $ 194,000.00                 112                    8      8 16       840         280       280         8
  5    Electronic Distribution System    MA        1028      $         125   $ 128,500.00                  28                    8      8 10       630         168       168         8
  6    Disclosure                        MA        1243      $         125   $ 155,375.00                  84                    8      8 15       700         210       210         8
  7    Presidential Matching Funds       MA         700      $         125   $ 87,500.00                   28                    8      4    8     420         112       112         8
  8    PCs                               MA       726.8      $         125   $ 90,850.00                  44.8                   8      0    8     490          84        84         8
  9    WebTA                             MA       451.2      $         125   $ 56,400.00                  11.2                   8      0    4     280          70        70         8
  10   Mobile Iron                      GSS       692.4      $         125   $ 86,550.00                  22.4                   8      4    6     420         112       112         8
  11   Wireless network                  MA       488.8      $         125   $ 61,100.00                  44.8                   8      0    8     280          70        70         8
  12   Mobile Devices                    MA         598      $         125   $ 74,750.00                   70                    8      0    8     280         112       112         8
  13   ARSS                              MA         510      $         125   $ 63,750.00                   42                    8      0    4     280          84        84         8
       Total hours                               10328.6                                                 551.6                  104    44 117      5880       1764       1764       104
       Bill Rate                               $ 125.00
       Total Cost                              $ 1,291,075




                                                                                                                                                                                      19
                                                                           Large Contract Firm Costs
Priority controls only


                                                 Total         Billing                    Complete inv. boundary, assess                                Controls              Develop
  #                System               Type     Hours         Rate            Cost        risks, & identify connections FIPS-199 eAuth PIA SSP & ISCP Assessment Remediation SAR
  1    Comprizon                         MA        420     $         125   $ 52,500.00                    8                 16      4 16       200          80        80        16
  2    Enterprise Content Management     MA        514     $         125   $ 64,250.00                    8                 16      4 20       250         100       100        16
  3    Case Management                   MA        852     $         125   $ 106,500.00                  30                 16     16 24       450         150       150        16
  4    LAN                              GSS       1160     $         125   $ 145,000.00                  80                 16     16 32       600         200       200        16
  5    Electronic Distribution System    MA        778     $         125   $ 97,250.00                   20                 16     16 20       450         120       120        16
  6    Disclosure                        MA        938     $         125   $ 117,250.00                  60                 16     16 30       500         150       150        16
  7    Presidential Matching Funds       MA        536     $         125   $ 67,000.00                   20                 16      8 16       300          80        80        16
  8    PCs                               MA        550     $         125   $ 68,750.00                   32                 16      0 16       350          60        60        16
  9    WebTA                             MA        348     $         125   $ 43,500.00                    8                 16      0    8     200          50        50        16
  10   Mobile Iron                      GSS        528     $         125   $ 66,000.00                   16                 16      8 12       300          80        80        16
  11   Wireless network                  MA        380     $         125   $ 47,500.00                   32                 16      0 16       200          50        50        16
  12   Mobile Devices                    MA        458     $         125   $ 57,250.00                   50                 16      0 16       200          80        80        16
  13   ARSS                              MA        390     $         125   $ 48,750.00                   30                 16      0    8     200          60        60        16
       Total hours                                7852                                                  394                 208    88 234      4200       1260       1260       208
       Bill Rate                               $ 125.00
       Total Cost                              $ 981,500




                                                                                                                                                                                  20
Summary Cost Analysis Estimate

              Contract Firm         All Moderate            Priority Controls
                    Size               Controls                    only
              Small               $ 613,475               $       451,375
              Medium              $ 1,071,064             $       813,625
              Large               $ 1,291,075             $       981,500

FEC IT Management On-going Responsibilities for NIST IT Controls

After the tasks described in the tables above are completed, FEC would need to develop a
continuous monitoring program that will assess IT controls on an annual basis (Controls
Assessment) that ensures all controls are reviewed over a three year cycle (NIST 800-37
Revision 1, page 36). Any deficiencies would need to be documented (Plan Of Action &
Milestone, see page 30) and remediated according to the agency’s established policy. Those
identified deficiencies should also be categorized as Low, Moderate, or High and remediated in a
timely manner commensurate with the risk posed by the respective deficiencies. Developing the
respective NIST documentation such as the SSP, ISCP, etc. will only need to be completed in its
entirety for the existing FEC systems, as well as if the agency implements a new system, or
changes have been made to an existing system, which could change the risk categorization and
applicable controls for that particular system. For those systems undergoing significant changes,
the documents would only need to be updated for those controls that were affected by the
changes.




                                                                                              21
      APPENDIX A – PRIORITY IT CONTROL SELECTIONS

Based on the FEC’s systems categorization level, the analysis is assessed only at the Moderate
baseline and then the priority controls are selected from there. As such, the following tables
show all controls at the Moderate baseline and then the High Priority control selections (noted by
a ‘1’ under the High Priority column) by family. The “Moderate Baseline” column includes both
numbers and numbers in parenthesis. The number without the parenthesis represents the control,
whereas the number inside parenthesis represents control enhancements. For example, AC-2 (1)
(2) (3) (4) means that control AC-2 has four control enhancements.

Note: For any of the tables below, the “Control #” column may appear to be missing numbers
(e.g. 14 and then 17 within the Access Controls table). This is due to NIST controls being retired
and NIST maintaining the original numbers so those controls that are retired are simply not
included.

Access Control family
                                     Control                                                                      Moderate               High
  #                Family               #                                Control                                   Baseline             Priority
  1             Access Control          1      Access Control Policy and Procedures                                  AC-1                  1
  2             Access Control          2      Account Management                                             AC-2 (1) (2) (3) (4)         1
  3             Access Control          3      Access Enforcement                                                    AC-3
  4             Access Control          4      Information Flow Enforcement                                          AC-4
  5             Access Control          5      Separation of Duties                                                  AC-5                  1
  6             Access Control          6      Least Privilege                                              AC-6 (1) (2) (5) (9) (10)
  7             Access Control          7      Unsuccessful Logon Attempts                                           AC-7                  1
  8             Access Control          8      System Use Notification                                               AC-8
  9             Access Control         11      Session Lock                                                       AC-11 (1)                1
 10             Access Control         12      Session Termination                                                  AC-12
 11             Access Control         14      Permitted Actions without Identification or Authentication           AC-14                  1
 12             Access Control         17      Remote Access                                                 AC-17 (1) (2) (3) (4)         1
 13             Access Control         18      Wireless Access                                                    AC-18 (1)                1
 14             Access Control         19      Access Control for Mobile Devices                                  AC-19 (5)                1
 15             Access Control         20      Use of External Information Systems                              AC-20 (1) (2)
 16             Access Control         21      Information Sharing                                                  AC-21
 17             Access Control         22      Publicly Accessible Content                                          AC-22
                                                                                                                     Total                 9


Awareness and Training family
                                     Control                                                                       Moderate              High
  #                Family              #                           Control                                         Baseline             Priority
  1         Awareness and Training     1 Security Awareness and Training Policy and Procedures                       AT-1                  1
  2         Awareness and Training     2 Security Awareness Training                                               AT-2 (2)                1
  3         Awareness and Training     3 Role-Based Security Training                                                AT-3                  1
  4         Awareness and Training     4 Security Training Records                                                   AT-4                  1
                                                                                                                    Total                  4

Note: The FEC has already implemented this family’s control requirements and this has already
been reflected in the cost estimates.

                                                                                                                                               22
Audit and Accountability family
                                               Control                                                           Moderate         High
  #                   Family                      #                                Control                       Baseline        Priority
  1           Audit and Accountability            1      Audit and Accountability Policy and Procedures            AU-1             1
  2           Audit and Accountability            2      Auditable Events                                        AU-2 (3)           1
  3           Audit and Accountability            3      Content of Audit Records                                AU-3 (1)
  4           Audit and Accountability            4      Audit Storage Capacity                                    AU-4             1
  5           Audit and Accountability            5      Response to Audit Processing Failures                     AU-5
  6           Audit and Accountability            6      Audit Review, Analysis, and Reporting                  AU-6 (1) (3)        1
  7           Audit and Accountability            7      Audit Reduction and Report Generation                   AU-7 (1)
  8           Audit and Accountability            8      Time Stamps                                             AU-8 (1)
  9           Audit and Accountability            9      Protection of Audit Information                         AU-9 (4)           1
 10           Audit and Accountability           11      Audit Record Retention                                   AU-11
 11           Audit and Accountability           12      Audit Generation                                         AU-12
                                                                                                                  Total             5


Security Assessment and Authorization family

                                               Control                                                           Moderate         High
  #                   Family                     #                                 Control                       Baseline        Priority
                                                         Security Assessment and Authorization Policies and
                                                                                                                   CA-1
  1    Security Assessment and Authorization      1      Procedures                                                                 1
  2    Security Assessment and Authorization      2      Security Assessments                                    CA-2 (1)           1
  3    Security Assessment and Authorization      3      System Interconnections                                 CA-3 (5)           1
  4    Security Assessment and Authorization      5      Plan of Action and Milestones                            CA-5              1
  5    Security Assessment and Authorization      6      Security Authorization                                   CA-6              1
  6    Security Assessment and Authorization      7      Continuous Monitoring                                   CA-7 (1)           1
  7    Security Assessment and Authorization      9      Internal System Connections                              CA-9
                                                                                                                  Total             6

Configuration Management family
                                               Control                                                          Moderate          High
  #                   Family                      #                             Control                         Baseline         Priority
  1         Configuration Management              1    Configuration Management Policy and Procedures             CM-1              1
  2         Configuration Management              2    Baseline Configuration                                 CM-2 (1) (3) (7)      1
  3         Configuration Management              3    Configuration Change Control                             CM-3 (2)            1
  4         Configuration Management              4    Security Impact Analysis                                   CM-4              1
  5         Configuration Management              5    Access Restrictions for Change                             CM-5              1
  6         Configuration Management              6    Configuration Settings                                     CM-6              1
  7         Configuration Management              7    Least Functionality                                    CM-7 (1) (2) (4)
  8         Configuration Management              8    Information System Component Inventory                 CM-8 (1) (3) (5)      1
  9         Configuration Management              9    Configuration Management Plan                              CM-9              1
 10         Configuration Management             10 Software Usage Restrictions                                  CM-10
 11         Configuration Management             11 User-Installed Software                                      CM-11
                                                                                                                  Total             8




                                                                                                                                        23
Contingency Planning family
                                             Control                                                                          Moderate                  High
  #                  Family                     #                                Control                                      Baseline                 Priority
  1           Contingency Planning              1      Contingency Planning Policy and Procedures                               CP-1                      1
  2           Contingency Planning              2      Contingency Plan                                                     CP-2 (1) (3) (8)              1
  3           Contingency Planning              3      Contingency Training                                                     CP-3
  4           Contingency Planning              4      Contingency Plan Testing                                                CP-4 (1)                   1
  5           Contingency Planning              6      Alternate Storage Site                                                CP-6 (1) (3)                 1
  6           Contingency Planning              7      Alternate Processing Site                                            CP-7 (1) (2) (3)
  7           Contingency Planning              8      Telecommunications Services                                           CP-8 (1) (2)
  8           Contingency Planning              9      Information System Backup                                               CP-9 (1)
  9           Contingency Planning             10      Information System Recovery and Reconstitution                         CP-10 (2)                   1
                                                                                                                                Total                     5


Identification and Authentication family
                                             Control                                                                           Moderate                 High
  #                    Family                  #                            Control                                            Baseline                Priority
  1      Identification and Authentication     1 Identification and Authentication Policy and Procedures                         IA-1                     1
                                                       Identification and Authentication (Organizational Users)       IA-2 (1) (2) (3) (8) (11) (12)
  2      Identification and Authentication      2                                                                                                         1
  3      Identification and Authentication      3      Device Identification and Authentication                                   IA-3
  4      Identification and Authentication      4      Identifier Management                                                      IA-4                    1
  5      Identification and Authentication      5      Authenticator Management                                           IA-5 (1) (2) (3) (11)           1
  6      Identification and Authentication      6      Authenticator Feedback                                                     IA-6
  7      Identification and Authentication      7      Cryptographic Module Authentication                                        IA-7                    1
                                                       Identification and Authentication (Non-Organizational Users)        IA-8 (1) (2) (3) (4)
  8      Identification and Authentication      8
                                                                                                                                  Total                   5


Note: The FEC has already implemented some of this family’s control requirements such as
requiring dual factor authentication (passphrase and PIV badge with unique PIN) for accessing
the agency’s network. . Although there have been some control requirements addressed, this has
not been assessed (tested), so these controls may or may not meet the NIST standards.

Incident Response family
                                             Control                                                                           Moderate                 High
  #                  Family                    #                          Control                                              Baseline                Priority
  1            Incident Response               1 Incident Response Policy and Procedures                                          IR-1                    1
  2            Incident Response               2 Incident Response Training                                                       IR-2                    1
  3            Incident Response               3 Incident Response Testing                                                      IR-3 (2)
  4            Incident Response               4 Incident Handling                                                              IR-4 (1)
  5            Incident Response               5 Incident Monitoring                                                              IR-5
  6            Incident Response               6 Incident Reporting                                                             IR-6 (1)                  1
  7            Incident Response               7 Incident Response Assistance                                                   IR-7 (1)
  8            Incident Response               8 Incident Response Plan                                                           IR-8                    1
                                                                                                                                 Total                    4




                                                                                                                                                              24
Maintenance family

                                               Control                                                       Moderate       High
  #                  Family                      #                         Control                           Baseline      Priority
  1                Maintenance                   1 System Maintenance Policy and Procedures                   MA-1            1
  2                Maintenance                   2 Controlled Maintenance                                     MA-2            1
  3                Maintenance                   3 Maintenance Tools                                        MA-3 (1) (2)
  4                Maintenance                   4 Nonlocal Maintenance                                      MA-4 (2)
  5                Maintenance                   5 Maintenance Personnel                                      MA-5
  6                Maintenance                   6 Timely Maintenance                                         MA-6
                                                                                                              Total           2

Media Protection family

                                               Control                                                       Moderate       High
  #                  Family                      #                          Control                          Baseline      Priority
  1              Media Protection                1 Media Protection Policy and Procedures                     MP-1            1
  2              Media Protection                2 Media Access                                               MP-2
  3              Media Protection                3 Media Marking                                              MP-3
  4              Media Protection                4 Media Storage                                              MP-4
  5              Media Protection                5 Media Transport                                           MP-5 (4)
  6              Media Protection                6 Media Sanitization                                         MP-6            1
  7              Media Protection                7 Media Use                                                 MP-7 (1)
                                                                                                              Total           2

Physical and Environmental Protection family
                                               Control                                                       Moderate       High
  #                   Family                     #                                Control                    Baseline      Priority
                                                         Physical and Environmental Protection Policy and
                                                                                                               PE-1
  1    Physical and Environmental Protection      1      Procedures                                                           1
  2    Physical and Environmental Protection      2      Physical Access Authorizations                        PE-2           1
  3    Physical and Environmental Protection      3      Physical Access Control                               PE-3           1
  4    Physical and Environmental Protection      4      Access Control for Transmission Medium                PE-4
  5    Physical and Environmental Protection      5      Access Control for Output Devices                     PE-5
  6    Physical and Environmental Protection      6      Monitoring Physical Access                          PE-6 (1)         1
  7    Physical and Environmental Protection      8      Visitor Access Records                                PE-8           1
  8    Physical and Environmental Protection      9      Power Equipment and Cabling                           PE-9
  9    Physical and Environmental Protection     10      Emergency Shutoff                                    PE-10           1
 10    Physical and Environmental Protection     11      Emergency Power                                      PE-11           1
 11    Physical and Environmental Protection     12      Emergency Lighting                                   PE-12           1
 12    Physical and Environmental Protection     13      Fire Protection                                     PE-13 (3)        1
 13    Physical and Environmental Protection     14      Temperature and Humidity Controls                    PE-14           1
 14    Physical and Environmental Protection     15      Water Damage Protection                              PE-15           1
 15    Physical and Environmental Protection     16      Delivery and Removal                                 PE-16
 16    Physical and Environmental Protection     17      Alternate Work Site                                  PE-17           1
                                                                                                              Total          12




                                                                                                                                  25
Planning family

                                          Control                                                           Moderate            High
  #                Family                   #                           Control                             Baseline           Priority
  1                Planning                 1 Security Planning Policy and Procedures                         PL-1                1
  2                Planning                 2 System Security Plan                                          PL-2 (3)              1
  3                Planning                 4 Rules of Behavior                                             PL-4 (1)              1
  4                Planning                 8 Information Security Architecture                               PL-8
                                                                                                             Total                3

Personnel Security family
                                          Control                                                           Moderate            High
  #                Family                   #                           Control                             Baseline           Priority
  1           Personnel Security            1 Personnel Security Policy and Procedures                       PS-1                 1
  2           Personnel Security            2 Position Risk Designation                                      PS-2
  3           Personnel Security            3 Personnel Screening                                            PS-3                 1
  4           Personnel Security            4 Personnel Termination                                          PS-4                 1
  5           Personnel Security            5 Personnel Transfer                                             PS-5
  6           Personnel Security            6 Access Agreements                                              PS-6
  7           Personnel Security            7 Third-Party Personnel Security                                 PS-7
  8           Personnel Security            8 Personnel Sanctions                                            PS-8
                                                                                                             Total                3

Risk Assessment family

                                          Control                                                          Moderate             High
  #                 Family                  #                         Control                              Baseline            Priority
  1            Risk Assessment              1 Risk Assessment Policy and Procedures                          RA-1                 1
  2            Risk Assessment              2 Security Categorization                                        RA-2                 1
  3            Risk Assessment              3 Risk Assessment                                                RA-3                 1
  4            Risk Assessment              5 Vulnerability Scanning                                     RA-5 (1) (2) (5)         1
                                                                                                             Total                4

System and Services Acquisition family
                                          Control                                                          Moderate             High
  #                Family                    #                           Control                            Baseline           Priority
  1     System and Services Acquisition      1 System and Services Acquisition Policy and Procedures          SA-1                1
  2     System and Services Acquisition      2 Allocation of Resources                                        SA-2
  3     System and Services Acquisition      3 System Development Life Cycle                                  SA-3                1
  4     System and Services Acquisition      4 Acquisition Process                                     SA-4 (1) (2) (9) (10)
  5     System and Services Acquisition      5 Information System Documentation                               SA-5
  6     System and Services Acquisition      8 Security Engineering Principles                                SA-8
  7     System and Services Acquisition      9 External Information System Services                         SA-9 (2)
  8     System and Services Acquisition     10 Developer Configuration Management                            SA-10                1
  9     System and Services Acquisition     11 Developer Security Testing and Evaluation                     SA-11                1
                                                                                                              Total               4




                                                                                                                                      26
System and Communications Protection family
                                             Control                                                                   Moderate            High
  #                  Family                    #                                 Control                               Baseline           Priority
                                                       System and Communications Protection Policy and
                                                                                                                          SC-1
  1   System and Communications Protection      1      Procedures                                                                            1
  2   System and Communications Protection      2      Application Partitioning                                          SC-2
  3   System and Communications Protection      4      Information in Shared Resources                                   SC-4
  4   System and Communications Protection      5      Denial of Service Protection                                      SC-5                1
  5   System and Communications Protection      7      Boundary Protection                                         SC-7 (3) (4) (5) (7)      1
  6   System and Communications Protection      8      Transmission Confidentiality and Integrity                      SC-8 (1)              1
  7   System and Communications Protection     10      Network Disconnect                                                SC-10
  8   System and Communications Protection     12      Cryptographic Key Establishment and Management                    SC-12
  9   System and Communications Protection     13      Cryptographic Protection                                          SC-13               1
 10   System and Communications Protection     15      Collaborative Computing Devices                                   SC-15
 11   System and Communications Protection     17      Public Key Infrastructure Certificates                            SC-17
 12   System and Communications Protection     18      Mobile Code                                                       SC-18               1
 13   System and Communications Protection     19      Voice Over Internet Protocol                                      SC-19
                                                       Secure Name /Address Resolution Service (Authoritative
                                                                                                                         SC-20
 14   System and Communications Protection     20      Source)
                                                       Secure Name /Address Resolution Service (Recursive or
                                                                                                                         SC-21
 15   System and Communications Protection     21      Caching Resolver)
                                                       Architecture and Provisioning for Name/Address Resolution
                                                                                                                         SC-22
 16   System and Communications Protection     22      Service
 17   System and Communications Protection     23      Session Authenticity                                              SC-23
 18   System and Communications Protection     28      Protection of Information at Rest                                 SC-28
 19   System and Communications Protection     39      Process Isolation                                                 SC-39
                                                                                                                         Total               6


System and Information Integrity family
                                             Control                                                                   Moderate            High
  #                 Family                      #                            Control                                    Baseline          Priority
  1      System and Information Integrity       1 System and Information Integrity Policy and Procedures                   SI-1              1
  2      System and Information Integrity       2 Flaw Remediation                                                      SI-2 (2)
  3      System and Information Integrity       3 Malicious Code Protection                                           SI-3 (1) (2)           1
  4      System and Information Integrity       4 Information System Monitoring                                      SI-4 (2) (4) (5)
  5      System and Information Integrity       5 Security Alerts, Advisories, and Directives                              SI-5              1
  6      System and Information Integrity       7 Software, Firmware, and Information Integrity                       SI-7 (1) (7)
  7      System and Information Integrity       8 Spam Protection                                                     SI-8 (1) (2)           1
  8      System and Information Integrity      10 Information Input Validation                                            SI-10
  9      System and Information Integrity      11 Error Handling                                                          SI-11
 10      System and Information Integrity      12 Information Handling and Retention                                      SI-12              1
 11      System and Information Integrity      16 Memory Protection                                                       SI-16
                                                                                                                          Total              5




                                                                                                                                                 27
Program Management family
                                Control                                                                 Moderate    High
  #              Family            #                                  Control                           Baseline   Priority
  1        Program Management      1      Information Security Program Plan                                all        1
  2        Program Management      2      Senior Information Security Officer                              all        1
  3        Program Management      3      Information Security Resources                                   all        1
  4        Program Management      4      Plan of Action and Milestones Process                            all        1
  5        Program Management      5      Information System Inventory                                     all        1
  6        Program Management      6      Information Security Measures of Performance                     all
  7        Program Management      7      Enterprise Architecture                                          all        1
  8        Program Management      8      Critical Infrastructure Plan                                     all        1
  9        Program Management      9      Risk Management Strategy                                         all
 10        Program Management     10      Security Authorization Process                                   all        1
 11        Program Management     11      Mission/Business Process Definition                              all
 12        Program Management     12      Insider Threat Program                                           all
 13        Program Management     13      Information Security Workforce                                   all
 14        Program Management     14      Testing, Training, and Monitoring                                all        1
 15        Program Management     15      Contacts with Security Groups and Associations                   all
 16        Program Management     16      Threat Awareness Program                                         all        1
                                                                                                         Total       10


Privacy family
                                Control                                                                 Moderate    High
  #              Family           #                                Control                              Baseline   Priority
  1              Privacy          1       Authority to Collect                                             all        1
  2              Privacy          2       Purpose Specification                                            all        1
  3              Privacy          3       Governance and Privacy Program                                   all        1
  4              Privacy          4       Privacy Impact and Risk Assessment                               all        1
                                          Privacy Requirements for Contractors and Service
                                                                                                           all
  5              Privacy           5      Providers                                                                   1
  6              Privacy           6      Privacy Monitoring and Auditing                                 all         1
  7              Privacy           7      Privacy Awareness and Training                                  all         1
  8              Privacy           8      Privacy Reporting                                               all         1
  9              Privacy           9      Privacy-Enhanced System Design and Development                  all
 10              Privacy          10      Accounting of Disclosures                                       all         1
 11              Privacy          11      Data Quality                                                    all         1
 12              Privacy          12      Data Integrity and Data Integrity Board                         all         1
 13              Privacy          13      Minimization of Personally Identifiable Information             all
 14              Privacy          14      Data Retention and Disposal                                     all         1
 15              Privacy          15      Minimization of PII Used in Testing, Training, and Research     all
 16              Privacy          16      Consent                                                         all         1
 17              Privacy          17      Individual Access                                               all         1
 18              Privacy          18      Redress                                                         all
 19              Privacy          19      Complaint Management                                            all         1
 20              Privacy          20      Inventory of Personally Identifiable Information                all         1
 21              Privacy          21      Privacy Incident Response                                       all         1
 22              Privacy          22      Privacy Notice                                                  all         1
 23              Privacy          23      System of Records Notices and Privacy Act Statements            all         1
 24              Privacy          24      Dissemination of Privacy Program Information                    all         1
 25              Privacy          25      Internal Use                                                    all         1
 26              Privacy          26      Information Sharing with Third Parties                          all
                                                                                                         Total       21




                                                                                                                          28
                  APPENDIX B – WHAT ARE POAMS?

Plan of Action and Milestones (POA&Ms) are the result of identified deficiencies. After a
deficiency is identified, it needs to be remediated. In order for a deficiency to be remediated, it is
going to require personnel, time, money, and other resources to resolve that deficiency. As
documented earlier, POA&Ms may arise when complying with either FISMA, OMB A-123,
Financial Statement audits, etc. The OMB has issued formal guidance regarding POA&Ms in the
form of M-01-02. The following is an excerpt:

POA&M is a tool that identifies tasks that need to be accomplished. It details resources
required to accomplish the elements of the plan, any milestones in meeting the task, and
scheduled completion dates for the milestones. [emphasis added]

The purpose of this POA&M is to assist agencies in identifying, assessing, prioritizing,
and monitoring the progress of corrective efforts for security weaknesses found in
programs and systems. [emphasis added]



What should the POA&Ms contain?

POA&Ms are utilized for resolving identified deficiencies. As this is a crucial task for
remediation efforts, it is necessary to include specific items on each POA&M. The following
should be included for each POA&M:

    Type of weakness
         o This describes the deficiency to provide the reader with an explanation of why
            this is a deficiency.
    The office or agency responsible for resolving the deficiency.
    Estimated funding resources required to resolve the deficiency.
    Scheduled completion date.
    Key milestones.
    Source
         o This essentially identifies where the deficiency came from (e.g. FISMA, A-123,
            OIG, etc.).
    Status
         o An example if this would be ongoing or completed.




                                                                                                   29
Why are POA&Ms so important?

POA&Ms are extremely important because they provide a road map for agencies to correct their
deficiencies taking into consideration time, cost and staff resources that will be required to correct the
deficiencies. Agencies must gather all of their deficiencies and group them by area (e.g. Access
Controls). The grouping or consolidating of those deficiencies may rise to the level of a
significant deficiency or material weakness. For this reason, it is very important that all
deficiencies be associated with a POA&M, as it is crucial that the deficiencies be
resolved/remediated.

The following is another excerpt from OMB M-02-01:

Additionally, the POA&Ms should either reflect consolidation with or be accompanied
by other agency plans to correct security weaknesses found during any other review done
by, for, or on behalf of the agency, including GAO audits, financial system audits, and
critical infrastructure vulnerability assessments.



Where do all the POA&Ms go?

In accordance with OMB M-02-01, all POA&Ms should be sent to OMB on a quarterly basis.
For this reason, it is imperative that each POA&M created contains the required information or
else the agency will not be in compliance with OMB requirements.




                                                                                                       30
                          APPENDIX C – WHAT IS FISMA

The Federal Information Security Management Act (FISMA) was enacted in 2002 as part of the
E-Government Act 6 and requires each executive federal agency to develop, document, and
implement an agency-wide program to provide information security for the information and
information systems that support the operations and assets of the agency (emphasis added),
including those provided or managed by another agency, contractor, or other source. As
discussed in the NIST section earlier, the SP documents are used by agencies to comply with
FISMA. In complying with the SP NIST documents, one can be assured that the agency will
have in fact complied with the various attributes of the FISMA requirements and all other related
laws and regulations.

To comply with FISMA, management must provide for an agency-wide Security Assessment
and Authorization (SA&A) program. The steps below derive from NIST SP 800-37, where an
agency complies with FISMA by performing a SA&A program. The steps for completing an
agency-wide SA&A program are as follows:

                                       SA&A Compliance Steps

                                  1.  Security Assessment & Authorization
                                      (SA&A) Planning
                                  2. Complete an Inventory analysis
                                  3. Assess Risk and Criticality
                                  4. Interconnected Systems Analysis
                                  5. FIPS-199 Security Categorization
                                  6. Develop SA&A Documents
                                  7. Security Controls Assessment (SCA)
                                  8. Security Assessment Report (SAR)
                                      Development
                                  9. Accreditation
                                  10. Continuous Monitoring


In order to comply with FISMA, each agency must develop, document, and implement an
agency-wide program to ensure security is appropriate for the systems (including other
technologies such as applications, etc.) supporting the programs and mission of the agency.
Below are brief descriptions about the respective SA&A program steps.



6
  The E-Government Act states: “To enhance the management and promotion of electronic Government services and
processes …require using Internet-based information technology to enhance citizen access to Government
information and services, and for other purposes.” Contained within this Act is FISMA under Title III of the
Government Act.
                                                                                                          31
SA&A Planning

This step basically involves identifying and gathering the various personnel needed for this
process. There are many areas of compliance with FISMA and this will need to involve all levels
of management within the agency. For this reason, the planning of SA&A efforts will involve
holding meetings to discuss the subsequent steps (listed below) and the level of effort required
for each member involved with FISMA.

Inventory Analysis

This step is usually very time intensive and complex, as this requires a full analysis of all
hardware and software, as well as connections between those technologies. It involves compiling
a complete inventory of all hardware, software, systems, databases, applications, and any other
equipment that is specific to the agency. Each of these must be accounted for in the SA&A
inventory. Ideally, the end product should contain the following:

      Hardware           This should include the specific version number, quantity, and
                         type of hardware.

      Software           This should include the version number, release, and quantity
                         of software deployed on the hardware. This also includes a
                         detailed description of the software (e.g. business purpose).

      Location           This should include the physical location of the hardware.

      IT Owner           This is the IT person that will ultimately sign off as the
                         system having an acceptable level of risk to be deployed in
                         production (e.g. Chief Information Officer).

      Data Owner         This is the person who is responsible for approving access
                         rights for other users.

      Connections        This lists any connections the hardware has with other
                         systems.

      Categorization     Listed as either High, Moderate, or Low and also classifies
                         the system as either a General Support System (GSS) or
                         Major Application (MA).




                                                                                             32
Note: It was noted through interviews with IT management personnel that the agency is
currently procuring contract services for analyzing all hardware and software to identify all
elements of the agency inventory. It was also learned that the agency has specific plans to
complete this inventory analysis within the next 6 to 8 months.

Assess Risk and Criticality

Once the entire inventory is accounted for and documented, it is then necessary to categorize these
systems in terms of their risk and criticality. The SA&A process includes GSSs and MAs. GSSs are those
systems that support major applications. An example would be an accounting application that processes
payroll, which resides on a Windows 2008 Server environment. In this instance, the GSS would be the
Windows Server, and the accounting application would be the Major Application. There are also other
classifications such as Minor Application. An example of this would be a Microsoft Access database used
to collect and gather data to input into the accounting application. In this instance, the database would be
the Minor Application and the accounting application would be the MA.

There are also those systems classified as FISMA non-reportable systems. These are the systems
that have no sensitive data, Personally Identifiable Information (PII), or any other data that is
deemed critical or important to the agency. The entire inventory needs to be assessed in terms of
risk to the overall mission of the agency and then categorized as such (e.g. GSS, MA, Minor
Application, etc.).

Interconnected Systems Analysis

Once the inventory has been identified, it is then crucial to understand which systems interface
and/or interconnect with other systems. The reason this becomes important is because if one
system has one set of security posture expected, and yet interconnects with another system; then
the interconnecting systems must attain the same or greater security measures. This analysis also
must include identifying those connections with users that are external to the agency such a
person that is an employee of another agency or a member of the public (e.g. a person who is
filing their political contributions via the Electronic Distribution System). This also includes
identifying those systems that have a direct connection and yet those systems reside at another
agency location.

FIPS-199 Security Categorization

The Federal Information Processing Standards (FIPS) are documents written by the NIST. FIPS-
199 is a document particularly concerned with security categorizations for GSSs and MAs. There
are three categories in the FIPS-199 assessment. They are Low, Moderate, and High. This
becomes very important because depending on the security categorization (low, moderate, or
high); the controls to be implemented will vary. For example, a system that is deemed to be Low,
will deploy one set of controls, whereas a High system will have to deploy another set of controls
                                                                                                         33
which are more comprehensive. Once the categorization has been completed, the set of controls
must be implemented via NIST 800-53, Revision 4, which has a standard set of controls broken
out by security categorization.

Note: Through interviews with IT management personnel, it was determined that all
systems residing at the agency would be categorized as Moderate. However, none of the
systems have had any documentation completed through a FIPS-199 security
categorization, therefore one or more of these systems may in fact have a different
categorization.

Develop SA&A Documents

There are several documents that constitute the SA&A package.



                                 SA&A Package Documents

                                    Boundary Memo
                                    FIPS-199 Worksheet
                                    PIA
                                    SSP
                                    eAuthentication Assessment
                                    ISCP
                                    POA&M Listing
They are as follows:

    Boundary Memo
        o Used for determining the beginning and ending areas of scope for the system. All
           hardware, software, databases, applications, and systems shall be documented in
           the boundary memo. The memo should also list whether or not each item is in or
           out of scope. For example, an application may have hardware listed in the
           boundary table, but that hardware may be part of another SA&A package. This is
           important so that all of the dependencies are identified.

    FIPS-199 Security Categorization
        o The completion of the FIPS-199 worksheet will result in the categorization of the
           respective system. (High, Moderate, or Low)

    Privacy Impact Assessment (PIA)
         o The system must consider privacy concerns, as this affects the overall
            categorization of the system as well. When performing a PIA, the PII elements
            shall be identified. These elements should then be analyzed to ascertain if in
            combination, they can be traced to a person. If one or more PII elements can be


                                                                                          34
              traced to a person, then this information has risen to the level of Information in
              Identifiable Form (IIF).

    System Security Plan (SSP)
        o This is a listing of the various controls (for the system’s categorization) and their
           implementation status, as well as any reliance placed on another GSS or MA.
    eAuthentication Assessment
        o This assessment goes through a NIST exercise whereby the end result provides
           for the type of identification that is acceptable for the given system. There are
           three requirements that must be validated on each system. It must be determined if
           the system is web-based, externally facing, and require authentication. If any
           system meets all three criteria, then an eAuthentication Assessment must be
           conducted in accordance with NIST SP 800-60 to identify the specific types of
           authentication that will be required. For example, a system containing sensitive
           data may require an ID + two factor authentication. An example of this is a User
           ID, password, and an RSA token.

    Information System Contingency Plan (ISCP)
         o The various contingency procedures are contained within this document. The
            ISCP also contains the Training, Test, and Exercise (TT&E), as well as the test
            results of the ISCP. Additionally, the ISCP contains a list of those hardware and
            software items that are deemed mission critical and also lists what should be
            restored first, second, and so on. The ISCP lists the key personnel responsible for
            restoring the data and managing the various contingency aspects of the system.

    POA&M
       o The POA&M contains a list of deficiencies, as well as the resources (e.g. people,
         money, etc.) needed to remediate the deficiencies listed in the POA&M. The
         POA&Ms also include a timeline for when the deficiencies will be corrected as
         well. See Appendix B for further details.


Security Controls Assessment

Once a system has been included in the inventory, as well as appropriately categorized in
accordance with FIPS-199, and the other required documents (e.g. SSP, ISCP) are completed, it
is then necessary to assess those controls documented in the SSP to verify if they are both
designed and operating effectively. This test is commonly referred to as the SCA. The results of
the SCA are analyzed and compared against the original documentation (e.g. SSP). If any
changes or updates need to be made, then the documents are modified from the SCA results. It is
during the SCA where control weaknesses arise (e.g. deficiencies), and where the POA&M must
be created to remediate and resolve the identified deficiency.


                                                                                             35
SAR Development

The SAR is the report used to document the various deficiencies contained within a system,
including their remediation status. If for example, a system had 10 deficiencies, of which 5 had
been remediated and the other 5 remained; the SAR would assess the remaining residual risk and
propose a recommendation to the Accrediting Official (AO) (i.e. Chief Information Officer)
regarding whether or not the system should be placed in a live environment (e.g. production).

Accreditation

The SAR is presented to the Accrediting Official (AO) for accreditation decision. It is at this
point that the AO makes the decision regarding an Authority to Operate (ATO) or an Interim
Authority to Operate (IATO). The AO can decide that the IATO is for 3, 6, 9, or 12 months.
When a system has an IATO, there are usually stipulations that the deficiencies noted must be
remediated within a prescribed time or else the system will resort back to not being authorized.
This is very important, as if there is a system with open deficiencies and an IATO; then the
POA&M must be aggressive in ensuring remediation over those deficiencies.

Continuous Monitoring

Once a system has undergone a SA&A, it is essential to continuously monitor that system for
security posture. As there are always changes such as personnel, system changes, releases,
upgrades, patches, reassignment of priorities, etc. it is imperative that the system be recalibrated
to ensure that the security posture is still intact. That is the essential function of this phase of the
SA&A process.




                                                                                                      36
        APPENDIX D – ACRONYM LISTING

AO      Accrediting Official

ATO     Authority to Operate

CPIC    Capital Planning and Investment Control Process

DNS     Domain Name System

FEC     Federal Election Commission

FIPS    Federal Information Processing Standards

FISMA   Federal Information Security Management Act

GSS     General Support System

HIPAA   Health Insurance Portability and Accountability Act

IATO    Interim Authority to Operate

ICS     Industrial Control Systems

IDPS    Intrusion Detection and Prevention Systems

IIF     Information in Identifiable Form

ISCP    Information System Contingency Plan

IT      Information Technology

ITD     Information Technology Department

MA      Major Application

MOVS    Modes of Operation Validation System

NIST    National Institute of Standards and Technology

OCC     Organization Common Controls

OIG     Office of Inspector General


                                                              37
OMB     Office of Management and Budget

PACS    Physical Access Control Systems

PAR     Performance and Accountability Report

PIA     Privacy Impact Assessment

PII     Personally Identifiable Information

PIV     Personal Identity Verification

POA&M   Plan of Actions and Milestones

RFID    Radio Frequency Identification

RoB     Rules of Behavior

SA&A    Security Assessment and Authorization

SAR     Security Assessment Report

SCA     Security Controls Assessment

SCAP    Security Content Automation Protocol

SP      Special Publications

SSP     System Security Plan

TDEA    Triple Data Encryption Algorithm

TLS     Transport Layer Security

TMOVS   Modes of Operation Validation System

TT&E    Training, Test, and Exercise




                                                38
                            APPENDIX E - RESOURCES

                 Resource                                 Location

NIST Special Publications              http://csrc.nist.gov/publications/PubsSPs.html

NIST home page                         www.nist.gov

US-CERT                                http://www.us-cert.gov/

NIST-FISMA                             http://csrc.nist.gov/groups/SMA/fisma/




                                                                                    39
      APPENDIX F - ABOUT YOUR INTERNAL CONTROLS

Your Internal Controls, LLC is headquartered in North Potomac, Maryland. Your Internal
Controls, LLC is a small business and has been servicing clients since 2003. We provide internal
controls support. Our service offerings are as follows:

    FISMA

    SA&A package development (BSM, SSP, ITCP, etc.)

    Security Controls Assessments and Remediation

    Privacy audits

    FISCAM General & Application Controls Reviews (IT audits in support of financial
     statement audits)

    OMB compliance (A-50, 123, 127, and 130)

    Sarbanes-Oxley

    SOC reporting (SOC 1 and SOC 2 engagements)

    PCAOB, CoBIT, COSO, Internal Audit Augmentation

    Course instruction

    Technical reviews (e.g. firewalls, vulnerability assessments, etc.)

Your Internal Controls, LLC personnel have serviced Fortune 500 companies, Big 4 Accounting
Firms, Consulting Firms, Federal agencies, as well as state/local government.

Your Internal Controls was founded by Mr. Jack Heyman, who is Certified Public Accountant,
Certified Information Systems Auditor, Certified Government Financial Manager, Certification
and Accreditation Professional, and a Certified Information Privacy Professional. Your Internal
Controls is the exclusive provider of all IT courses on behalf of the Association of Government
Accountants. There are several IT courses being taught regularly, and amongst those are FISMA
related topics.

Mr. Heyman has developed and/or audited over 200 SA&A packages on behalf of many
agencies such as the IRS, Federal Maritime Commission, Federal Relations Labor Authority,
General Services Agency, Department of Defense, Department of Justice, and many more. Your
Internal Controls holds a GSA schedule contract as well for ease of procurement.
                                                                                             40
                         Federal Election Commission
                           Office of Inspector General




Fraud Hotline
202-694-1015
                        or toll free at 1-800-424-9530 (press 0; then dial 1015)
                         Fax us at 202-501-8134 or e-mail us at oig@fec.gov
             Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463

Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to fraud, waste,
abuse, and mismanagement of agency programs and operations. Individuals who contact the OIG can remain
anonymous. However, persons who report allegations are encouraged to provide their contact information in the event
additional questions arise as the OIG evaluates the allegations. Allegations with limited details or merit may be held
in abeyance until further specific details are reported or obtained. Pursuant to the Inspector General Act of 1978, as
amended, the Inspector General will not disclose the identity of an individual who provides information without the
consent of that individual, unless the Inspector General determines that such disclosure is unavoidable during the
course of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                                    Together we can make a difference.
